HHS/OIG-Audit--"Financial Management Over the National Hansen's Disease Program, (A-15-94-00026)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Financial Management Controls Over the National Hansen's Disease Program,"
(A-15-94-00026)
June 8, 1995
Complete Text of Report is available in PDF format
(3.96 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides our assessment of financial management controls
relative to events surrounding a request to reprogram $1.4 million to the Hansen's
Disease Program. The report points out that the Health Resources and Services
Administration (HRSA) improperly transferred $1.4 million of Hansen's Disease
Program obligations to the National Health Service Corps. The transfers violated
the requirement that an obligation be charged to the account for which it was
incurred. The improper charges were reversed after the reprogramming request
was approved. Among other things, recommendations call for HRSA and the Public
Health Service to enhance staff awareness that justification for and review
of obligations and deobligations be documented, that overobligations be timely
reported as required, and to separate Hansen's disease activities from unrelated
programs.